Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL




     ECONOMIC OPPORTUNITY
     COMMISSION OF NASSAU
     COUNTY, INC., CLAIMED
      SOME UNALLOWABLE
       HEAD START COSTS


  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                    James P. Edert
                                               Regional Inspector General

                                                     September 2013
                                                      A-02-12-02003
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                      EXECUTIVE SUMMARY


Economic Opportunity Commission of Nassau County, Inc., claimed $879,876 for
unallowable Head Start expenditures.


WHY WE DID THIS REVIEW

The Administration for Children and Families (ACF) requested that we determine if costs
charged to Head Start by Economic Opportunity Commission of Nassau County, Inc. (EOC)
were allowable for Federal reimbursement.

Our objective was to determine whether costs claimed by EOC were allowable under the terms
of the grant and applicable Federal regulations.

BACKGROUND

The Head Start program provides grants to local public and private non-profit and for-profit
agencies to promote the school readiness of children from low-income families by enhancing
their cognitive, social, and emotional development. Within the U.S. Department of Health and
Human Services, ACF administers the Head Start program.

The American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act), enacted
February 17, 2009, provided an additional $1 billion to expand the Head Start program. These
funds were intended for activities such as expanding enrollment, funding cost-of-living wage
increases for grantees, upgrading centers and classrooms, and bolstering training and technical
assistance.

EOC is a nonprofit organization that operates Head Start programs that serve approximately 600
children at 7 centers throughout Nassau County, New York. EOC is primarily funded by
Federal, State, and local government agencies. For the period August 1, 2010, through July 31,
2011, ACF awarded EOC $6,955,243 in regular Head Start funds to operate its programs. In
addition, ACF awarded EOC $332,862 in Recovery Act funds to provide cost-of-living wage
increases to its staff, improve staff education, and relocate one classroom.

Principles for determining the allowability of expenditures charged to Head Start grants are set
forth in 2 CFR part 230, Cost Principles for Non-Profit Organizations, incorporated by reference
at 45 CFR section 74.27(a).

WHAT WE FOUND

The $332,862 in EOC’s Recovery Act costs that we reviewed were allowable. However, EOC
claimed some regular Head Start costs that were unallowable under the terms of the grant and
applicable Federal regulations. Of the $6,955,243 in regular Head Start costs that we reviewed,
EOC claimed $6,075,367 in costs that were allowable. However, the remaining costs, totaling
$879,876, were unallowable. Specifically, EOC claimed salary and fringe benefit costs that were

Economic Opportunity Commission of Nassau County, Inc., Head Start Expenditures (A-02-12-02003)   i
not properly documented. This occurred because EOC did not update its policies and procedures
for time and effort reporting when it implemented a new time and attendance system.

WHAT WE RECOMMEND

We recommend that ACF:

    •	 require EOC to refund $879,876 to the Federal Government and

    •	 ensure that EOC updates its policies and procedures for time and effort reporting to
       ensure compliance with Federal requirements.

ECONOMIC OPPORTUNITY COMMISSION OF NASSAU COUNTY, INC.,
COMMENTS AND OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our initial draft report, EOC stated that it did not have enough funds to
repay our recommended disallowance. EOC acknowledged that our finding related to effort
reporting “reflects one significant weakness in our [EOC’s] internal control structure.”
However, EOC stated that it has revised its procedures to ensure that it complies with personnel
activity reporting requirements. EOC also provided what it described as Personnel Change
Authorization (PCA) forms as documentation for the costs questioned in our initial draft report.

After reviewing EOC’s comments and additional documentation, we maintain that our findings
and recommendations are valid. EOC’s PCA forms do not meet Federal requirements for
documenting personnel activity. Specifically, the forms do not reflect after-the-fact
determinations of employee activity.

ADMINISTRATION FOR CHILDREN AND FAMILIES COMMENTS

In an email to the OIG dated September 9, 2013, ACF stated that it concurred with our findings.




Economic Opportunity Commission of Nassau County, Inc., Head Start Expenditures (A-02-12-02003)    ii
                                                     TABLE OF CONTENTS



INTRODUCTION .....................................................................................................................1 


           Why We Did This Review .............................................................................................1 


           Objective ........................................................................................................................1 


           Background ....................................................................................................................1 

                 Head Start Program ............................................................................................1 

                 American Recovery and Reinvestment Act of 2009..........................................1 

                 Economic Opportunity Commission of Nassau County, Inc. ............................1 

                 Federal Requirements ........................................................................................1 


           How We Conducted This Review..................................................................................2 


FINDING ...................................................................................................................................2 


           Unallowable Salary and Fringe Benefit Costs ...............................................................2 


RECOMMENDATIONS ...........................................................................................................3 


ECONOMIC OPPORTUNIY COMMISSION OF NASSAU COUNTY, INC.,

 COMMENTS AND OFFICE OF INSPECTOR GENERAL RESPONSE ............................3 


ADMINISTRATION FOR CHILDREN AND FAMILIES COMMENTS ..............................3 


APPENDIXES


            A: Audit Scope and Methodology ...............................................................................4 


            B: Economic Opportunity Commission of Nassau County, Inc., Comments...............5 





Economic Opportunity Commission of Nassau County, Inc., Head Start Expenditures (A-02-12-02003)                                                    iii
                                          INTRODUCTION


WHY WE DID THIS REVIEW

The Administration for Children and Families (ACF) requested that we determine if costs
charged to Head Start by Economic Opportunity Commission of Nassau County, Inc. (EOC)
were allowable for Federal reimbursement.

OBJECTIVE

Our objective was to determine whether costs claimed by EOC were allowable under the terms
of the grant and applicable Federal regulations.

BACKGROUND

Head Start Program

The Head Start program provides grants to local public and private non-profit and for-profit
agencies to promote the school readiness of children from low-income families by enhancing
their cognitive, social, and emotional development. Within the U.S. Department of Health and
Human Services, ACF administers the Head Start program.

American Recovery and Reinvestment Act of 2009

The American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act), enacted
February 17, 2009, provided an additional $1 billion to expand the Head Start program. These
funds were intended for activities such as expanding enrollment, funding cost-of-living wage
increases for grantees, upgrading centers and classrooms, and bolstering training and technical
assistance.

Economic Opportunity Commission of Nassau County, Inc.

EOC is a nonprofit organization that operates Head Start programs that serve approximately 600
children at 7 centers throughout Nassau County, New York. EOC is primarily funded by
Federal, State, and local government agencies. For the period August 1, 2010, through July 31,
2011, ACF awarded EOC $6,955,243 in regular Head Start funds to operate its programs. In
addition, ACF awarded EOC $332,862 in Recovery Act funds to provide cost-of-living wage
increases to its staff, improve staff education, and relocate one classroom.

Federal Requirements

As a nonprofit organization in receipt of Federal funds, EOC must comply with Federal cost
principles in 2 CFR part 230, Cost Principles for Non-Profit Organizations (Office of
Management and Budget Circular (OMB) A-122), incorporated by reference at 45 CFR section
74.27(a). Under these cost principles, for salaries and wages to be allowable for Federal




Economic Opportunity Commission of Nassau County, Inc., Head Start Expenditures (A-02-12-02003)   1
reimbursement, EOC must maintain personnel activity reports reflecting the actual activity of
each employee working on Federal awards.

HOW WE CONDUCTED THIS REVIEW

Our audit covered $7,288,105 in regular and Recovery Act-related Head Start funds expended by
EOC. Specifically, our audit covered regular Head Start expenditures totaling $6,955,243 that
EOC charged during the period August 1, 2010 through July 31, 2011, and Recovery Act
expenditures totaling $332,862 provided to EOC during the period July 1, 2009, through
September 30, 2010. For our review of EOC’s regular Head Start expenditures, we reviewed a
judgmental sample of salary and fringe benefit costs, consultant fees, rental expenses, utilities,
maintenance, supplies, insurance, and asset purchases. We reviewed all of EOC’s Recovery Act
expenditures. Appendix A contains the details of our audit scope and methodology.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

                                                FINDING

The $332,862 in EOC’s Recovery Act costs that we reviewed were allowable. However, EOC
claimed some regular Head Start costs that were unallowable under the terms of the grant and
applicable Federal regulations. Of the $6,955,243 in regular Head Start costs that we reviewed,
EOC claimed $6,075,367 in costs that were allowable. However, the remaining costs, totaling
$879,876, were unallowable. Specifically, EOC claimed salary and fringe benefit costs that were
not properly documented. This occurred because EOC did not update its policies and procedures
for time and effort reporting when it implemented a new time and attendance system.

UNALLOWABLE SALARY AND FRINGE BENEFIT COSTS

For salaries and wages to be allowable for Federal reimbursement, grantees must maintain
personnel activity reports reflecting the actual activity of each employee working on Federal
awards. These after-the-fact determinations of employee activity must be signed by the
employee or a supervisory official having firsthand knowledge of the employee’s activities, be
prepared at least monthly, coincide with one or more pay periods, and account for the total
activity of the employee (2 CFR pt. 230, App. B, § 8.m).

EOC did not adequately document salary and fringe benefit costs totaling $879,876 related to 78
of its 173 employees that reportedly worked on EOC’s Head Start grant during our audit period.
This occurred because EOC did not update its policies and procedures for time and effort
reporting when it implemented a new time and attendance system in January 2010. Prior to its
implementation of a new time and attendance system, EOC employees’ time and attendance
sheets included a personnel activity report section documenting their time spent on Federal
awards. However, EOC’s new system does not require time spent on Federal awards to be



Economic Opportunity Commission of Nassau County, Inc., Head Start Expenditures (A-02-12-02003)   2
documented on time and attendance sheets. Further, EOC did not modify its policies and
procedures or provide other guidance to staff instructing them how to document their time spent
on Federal awards. We found that staff at five of EOC’s seven Head Start centers wrote how
much time they spent on Federal awards on time and attendance sheets printed from EOC’s new
system. However, staff at the remaining two Head Start centers and at EOC’s administrative
office did not always record their time spent on Federal awards.

RECOMMENDATIONS

We recommend that ACF:

       •	 require EOC to refund $879,876 to the Federal Government and

       •	 ensure that EOC updates its policies and procedures for time and effort reporting to
          ensure compliance with Federal requirements.

ECONOMIC OPPORTUNITY COMMISSION OF NASSAU COUNTY, INC.,
COMMENTS AND OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our initial draft report, EOC stated that it did not have enough funds to
repay our recommended disallowance. EOC acknowledged that our finding related to effort
reporting “reflects one significant weakness in our [EOC’s] internal control structure.” 1
However, EOC stated that it has revised its procedures to ensure that it complies with personnel
activity reporting requirements. 2 EOC also provided what it described as Personnel Change
Authorization (PCA) forms as documentation for the costs questioned in our initial draft report.

After reviewing EOC’s comments and additional documentation, we maintain that our findings
and recommendations are valid. EOC’s PCA forms do not meet Federal requirements for
documenting personnel activity. Specifically, the forms do not reflect after-the-fact
determinations of employee activity.

EOC’s comments are included as Appendix B. 3

ADMINISTRATION FOR CHILDREN AND FAMILIES COMMENTS

In an email to the OIG dated September 9, 2013, ACF stated that it concurred with our findings.


1
 EOC also stated it did not agree that its policy and procedure manual was not followed. We did not make such an
assertion in our initial draft report. Rather, we stated that EOC did not update its policies and procedures for time
and effort reporting when it implemented a new time and attendance system.
2
 In its comments, EOC cited OMB Circular A-87. However, the cost principles detailed in the circular, Cost
Principles for State, Local, and Indian Tribal Governments, are not applicable to nonprofit organizations. As we
cited in our initial draft report, EOC is required to follow the cost principles detailed in OMB Circular A-122, Cost
Principles for Non-Profit Organizations.
3
    We did not include the PCA forms because they contained personally identifiable information.


Economic Opportunity Commission of Nassau County, Inc., Head Start Expenditures (A-02-12-02003)                         3
                    APPENDIX A: AUDIT SCOPE AND METHODOLOGY


SCOPE

Our audit covered $7,288,105 in regular and Recovery Act-related Head Start funds expended by
EOC. Specifically, our audit covered regular Head Start expenditures totaling $6,955,243 that
EOC charged during the period August 1, 2010 through July 31, 2011, and Recovery Act
expenditures totaling $332,862 provided to EOC during the period July 1, 2009, through
September 30, 2010. We did not perform an overall assessment of EOC’s internal control
structure. Rather, we reviewed only the internal controls designed and implemented to identify,
account for, and support the expenditures claimed for Federal reimbursement.

We performed our fieldwork at EOC’s administrative office in Hempstead, New York, from
February through June 2012.

Methodology

To accomplish our objective, we:

    •	 reviewed relevant Federal laws, regulations, and guidance;

    •	 reviewed EOC’s regular and Recovery Act Head Start grant applications and supporting
       documentation;

    •	 interviewed EOC personnel to gain an understanding of EOC’s accounting system,
       internal controls over Federal expenditures, and grant activities;

    •	 reviewed EOC’s financial policies and procedures;

    •	 reviewed EOC’s Head Start expenditures for allowability; and

    •	 discussed our results with EOC officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




Economic Opportunity Commission of Nassau County, Inc., Head Start Expenditures (A-02-12-02003)   4
                APPENDIX B: ECONOMIC OPPORTUNITY COMMISSION 

                      OF NASSAU COUNTY, INC., COMMENTS





                      Iris A. Johnson
                   Chief Executive Officer
                                                        €8.                          AnneJ. WeUs
                                                                                     Chairperson
                                                        ~
                                 ECONOMIC OPPORTUNITY COMMISSION
                                             OF NASSAU COUNTY, INC.
                                                 134 Jackson Street
                                                Hempstead, NY U550
                                                  Fax 516-292-3176
                                                www.eoc-nassau.org




            June 20, 2013


             Mr. Glenn H Richter, Audit Manager
             Office of Inspector General
             Office of Audit Services
             U.S. Department of Health and Human Services
             26 Federal Plaza Room 3900
             New York, NY 10278
             Report A-02-12-02003
            Dear Mr. Richter:
            Thank you for granting us an extension to reply to your report. The Economic
            Opportunity Commission of Nassau County, Inc. (EOQ is committed to be in
            compliance with all federal, local and state regulations. We appreciate the work and
            time your department spent in completing the audit of our agency.
            We respectfully appeal that the audit report stay in draft fonnat until our audit appeal
            has been finalized.
            FINDING
            The $332,862 in EOCs Recovery Act cost that we reviewed were allowable.
            However, EOC claimed some regular Head Start costs that were unallowable under
            the terms of the grant and applicable Federal regulations. Of the $6,955,243 in regular
            Head Start costs that we reviewed EOC claimed $6,075,367 in costs that were
            allowable. However, the remaining costs, totaling $879,876, were unallowable.
            Specifically, EOC claimed salary and fringe benefit costs that were not properly




Economic Opportunity Commission of Nassau County, Inc., Head Start Expenditures (A-02-12-02003)        5
                      documented. This occurred because EOC did not updated its policy and procedures
                      for time and effon reponing when it implemented a new time and attendance system.


                      AGENCY RESPONSE
                      The finding, (as stated above), reflects one significant wealmess in our internal control
                      structure relating to effon reponing for some of our employees working in our
                      agency.

    †
                We do agree with the requirements of Circular A-122 that require us to have effon
                      reponing for staff. However, we are responding to the questioned items as follows:
                         1) We do not agree that the EOC policy and procedure manual was not
                            followed- as that manual is not the overarching document to ensure
                            compliance with OMB requirements;

                         2) While not totally applicable to nonprofit organizations, Circular A-87 Section
                            8H specifically excludes the requirement of monthly Personnel Activity
                            Reports for non-allocated employees. Circular A-87 Section 8H states:
                                   (h) Suppon of salaries and wages. These standards regarding time
                                   distribution are in addition to the standards for payroll documentation.

                                   (1) Charges to Federal awards for salaries and wages, whether treated as
                                   direct or indirect costs, will be based on payrolls documented in
                                   accordance with generally accepted practice of the governmental unit
                                   and approved by a responsible official(s) of the governmental unit.

                                   (2) No further documentation is required for the salaries and wages of
                                   employees who work m a single indirect cost activity.

                                   (3) Where employees are expected to work solely on a single Federal
                                   award or cost objective, charges for their salaries and wages will be
                                   supponed by periodic cenifications that the employees worked solely on
                                   that program for the period covered by the cenification. These
                                   cenifications will be prepared at least semiannually and will be signed by
                                   the employee or supervisory official having firsthand knowledge of the
                                   work performed by the employee.




† Office of Inspector General Note: In our report, we refer to Circular A-122 as 2 CFR part 230, Cost Principles for
Non-Profit Organizations (OMB Circular A-122).

         Economic Opportunity Commission of Nassau County, Inc., Head Start Expenditures (A-02-12-02003)          6
             The employment process at the EOC includes the completion of a Personnel dlange
             Authorization, (PCA), form. The purpose of the PCA form is to:

                • Document the funded program site/location at which each employee is
                  assigned to work upon hire;
                • Indicate the approval process for hire- each PCA is signed by administration
                  and program managers;
                • Designate pay allocations for Head Start employees

             We have prepared a spreadsheet summarizing the questioned items from the auditor
             and have attached and referenced a completed Personnel dlange Authorization form
             for every employee questioned.

             The EOC completes an A-133 audit every year, and our auditors have not questioned
             our procedures, recommended a change, or advised us that our personnel effort
             documentation should be improved.

             Please be advised that we are now in compliance and have implemented procedures
             that will place this agency's accounting practices in accordance with Circular A-122
             standards.

            Most Head Start agencies do not have significant fund balance amount. In fact as of
            July 31, 2012 our Unrestricted OPERATING fund balance is ZERO. This potential
            recoupment can cause:
                       a. Lack of availability of credit markets
                       b. Potential reduction of programs. Many New York State contracts
                          require certain financial ratios to continue funding. Adding over $850K
                          to our liabilities will cause our quick ratio to fall below 1.0
                       c. This liability could cause a significant reduction of any fund raising
                          efforts. Donors like to pay for program not for past liabilities
                       d. This liability could endanger the continuation of our agency, we just do
                          not have the funds to pay this liability.
            As CEO, I respectfully request a meeting with the United States Department of
            Health and Human Services to reconcile our appeal before any finalization is done. I
            urge the Office of the Inspector General to allow the EOC a one-time




Economic Opportunity Commission of Nassau County, Inc., Head Start Expenditures (A-02-12-02003)      7
             accommodation to be in compliance with the Grcular A-87 requirements to enable
             the EOC to continue to provide key services to the Nassau County population.
             Sincerely,



       ~~~   Iru
             Chie
                    Jo     n,MHS
                      ecutive Officer

             Enclosures




Economic Opportunity Commission of Nassau County, Inc., Head Start Expenditures (A-02-12-02003)   8
